NATIONAL CREDIT UNION ADMINISTRATION




         OFFICE OF THE INSPECTOR GENERAL

                 REPORT TO CONGRESS

              April 1, 2000 – September 30, 2000




                  THE NCUA MISSION

 TO ENSURE THE SAFETY AND SOUNDNESS OF CREDIT UNIONS

 BY PROVIDING APPROPRIATE REGULATION AND SUPERVISION,

  WHILE EFFECTIVELY MANAGING THE AGENCY'S RESOURCES

             AND THE SHARE INSURANCE FUND



     THE OFFICE OF INSPECTOR GENERAL MISSION

   TO PROMOTE ECONOMY, EFFICIENCY, AND EFFECTIVENESS

            IN NCUA PROGRAMS AND OPERATIONS,

  AS WELL AS PREVENT AND DETECT FRAUD, WASTE, AND ABUSE
                  INDEX OF REPORTING REQUIREMENTS

                    OFFICE OF INSPECTOR GENERAL
               NATIONAL CREDIT UNION ADMINISTRATION


SECTION                      DATA REQUIRED                       RESPONSE   PAGE REF
 4(a)(2)   Review of Legislation and Regulations                               16
 5(a)(1)   Significant Problems, Abuses, or Deficiencies                       10
           relating to the administration of programs and
           operations disclosed during the reporting period.
 5(a)(3)   Recommendations with Respect to Significant                         10
           Problems, Abuses, or Deficiencies.
           Significant Recommendations Described in Previous
 5(a)(3)   Semiannual Reports on Which Corrective Action Has       None
           Not Been Completed.
 5(a)(4)   Summary of Matters Referred to Prosecution
           Authorities and Prosecutions, Which Have Resulted.      None
           Summary of Each Report to the Board Detailing
 5(a)(5)   Cases Where Access to All Records Was Not               None
           Provided or Where Information Was Refused.
 5(a)(6)   List of Audit Reports Issued During the Reporting                   20
           Period.
 5(a)(7)   Summary of Particularly Significant Reports.                        10
           Statistical Tables on Audit Reports With Questioned                 18
 5(a)(8)   Costs.
 5(a)(9)   Statistical Tables on Audit Reports With                            19
           Recommendations That Funds Be Put To Better Use.
5(a)(10)   Summary of Each Audit Report Issued Before the          None
           Start of the Reporting Period for Which No
           Management Decision Has Been Made by the End of
           the Reporting Period.
5(a)(11)   Description and Explanation of Reasons for any          None
           Significant Revised Management Decision Made
           During the Reporting Period.
5(a)(12)   Information Concerning Significant Management           None
           Decisions With Which the Inspector General is in
           Disagreement.
Inspector General’s Semiannual Report                   National Credit Union Administration


         INSPECTOR GENERAL'S MESSAGE TO THE CONGRESS

During this period, the Office of Inspector General (OIG) turned its attention to vigorously
imparting to NCUA employees and management, by our actions as well as by statute, the
Inspector General’s (IG) jurisdiction and independence. In this regard, we emphasized our
unique position—given our independence, experience, and integrity—to provide the high level
of public accountability needed in an oversight body. In conducting briefings on what type of
employee and civilian misconduct should be reported to the IG, we provided a tangible reminder
to agency employees that an IG presence nearby is prepared to respond to misconduct. By the
scope of our audits and our investigations of senior agency officials and the expertise we brought
to these undertakings, we demonstrated our independence and effectiveness.

On the audit side, our auditors emphasized internal controls and information security. Auditors
also began working with managers on joint consulting reviews of issues affecting agency
practices and programs at the regional level.

In addition to our proactive efforts to deter misconduct and ensure Government integrity through
briefings and other means, we conducted numerous investigations involving administrative
misconduct, abuse of authority, and suspected violations of criminal law.

Finally, we hired a new Assistant Inspector General for Investigations who also serves as
Counsel to the Inspector General. We welcome her to our staff.

AUDIT HIGHLIGHTS

During the past reporting period, the OIG initiated a new product line referred to as Management
Consulting Reviews (MCRs). MCRs are limited scope reviews prepared specifically for regional
management. The reviews are not audits but rather, consulting reviews on topics jointly selected
by NCUA regional management and the OIG. A management consulting agreement is signed by
both the regional director and the Inspector General and details the specific topic and objectives
agreed to, the timeframes for completion of the work, and any additional special considerations.
We completed two management consulting reviews this period in Regions I and III. Feedback
from each region has been extremely favorable and is helping to build stronger relationships with
regional management and field staff.

Another significant product issued this period included a report on NCUA’s controls over its
current inventory of notebook computers, including a review of NCUA’s notebook computer
inventory property management system and practices.

This period also marked the three year cycle for peer reviews required by the President’s Council
on Integrity and Efficiency (PCIE). We completed a peer review and report of the Securities and
Exchange Commission OIG. During this period, the Federal Housing Finance Board OIG
conducted a peer review of the NCUA OIG and reported a favorable opinion on our audit
operations.




                                                i
Inspector General’s Semiannual Report                    National Credit Union Administration


Finally, our audit staff reviewed the security and internal controls over NCUA’s significant
financial accounting system. We are in the process of finalizing a report summarizing the results
of that review.

INVESTIGATIVE HIGHLIGHTS

During the reporting period, the Office of Investigations initiated nine (9) new investigations and
closed six (6) additional matters. In an ongoing investigation involving suspected criminal
activity, the United States Postal Service OIG provided invaluable and timely investigative
assistance to the Office of Investigations.

The OIG also recently experienced one incident where a senior agency official refused to provide
an official agency document requested by the Office of Investigations. The OIG reminded
agency officials of their obligation to provide the OIG with direct access to all records and
information of the agency. Consequently, the agency official’s supervisor resolved the matter.

During this period the Office of Investigations presented training to NCUA supervisors on the
role and responsibilities of the OIG; the issue of IG independence; what types of employee
misconduct should be reported to the OIG; and how confidential information provided to the
OIG is handled by our office.

In addition, OIG investigators represented the OIG and responded to employee inquiries at the
NCUA Regional Conferences.

FUTURE PLANS

The NCUA OIG plans to emphasize information security in accordance with requirements and
obligations of OIGs under the recently passed Government Information Security Act. Our audit
staff will also continue to focus on agency strategic planning and reporting activities required by
the Results Act. In addition, auditors will perform more management consulting reviews at the
regional office level.

On the investigative side, the OIG has several proactive investigative reviews planned and
anticipates increased referrals of employee misconduct as a result of enhanced awareness
training.




                                                     Frank Thomas
                                                     Inspector General




                                                ii
Inspector General’s Semiannual Report                                         National Credit Union Administration


                                            TABLE OF CONTENTS


INDEX OF REPORTING                                                                                                 inside
REQUIREMENTS...............................................................................................         front
                                                                                                                   cover


INSPECTOR GENERAL'S MESSAGE TO CONGRESS..............................                                                i


NATIONAL CREDIT UNION ADMINISTRATION......................................                                           1


     NCUA Highlights..........................................................................................       4


      Federally Insured Credit Union Highlights...................................................                   6


      Legislative Highlights....................................................................................     7


OFFICE OF THE INSPECTOR GENERAL...................................................                                   9


AUDIT ACTIVITY.............................................................................................         10


INVESTIGATION ACTIVITY...........................................................................                   14


LEGISLATIVE AND REGULATORY REVIEWS.........................................                                         16


OTHER INSPECTOR GENERAL ACTIVITIES..............................................                                    17


TABLE I – REPORTS WITH QUESTIONED COSTS..................................                                           18


TABLE II – REPORTS WITH RECOMMENDATIONS                                                                             19
          THAT FUNDS BE PUT TO BETTER USE................................


TABLE III – SUMMARY OF OIG ACTIVITY..............................................                                   20
Inspector General’s Semiannual Report               National Credit Union Administration


        NATIONAL CREDIT UNION ADMINISTRATION


T
       he National Credit Union Administration (NCUA) was established as an
       independent, federal regulatory agency on March 10, 1970. The agency is
       responsible for chartering, examining, supervising, and insuring federal credit
       unions. It also insures state-chartered credit unions that ha ve applied for insurance
and have met National Credit Union Share Insurance requirements. NCUA is funded
entirely by credit unions; it does not receive any tax dollars. As of June 30, 2000, the
NCUA was supervising and insuring 6,468 Federal credit unions and insuring 4,011
state-chartered credit unions, a total of 10,479 institutions. This represents a loss of 98
Federal and 51 State chartered institutions since late 1999, for a total loss of 149 credit
unions nation-wide.

NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve six-
year terms. Terms are staggered, so that one term expires every two years. The Board is
responsible for the management of the National Credit Union Administration, the NCUA
Share Insurance Fund, the Central Liquidity Facility, and the Community Development
Revolving Loan Program.

The National Credit Union Administration executes its program through its central office
in Alexandria, Virginia and regional offices in Albany, New York; Alexandria, Virginia;
Atlanta, Georgia; Lisle, Illinois; Austin, Texas; and Concord, California. NCUA also
operates the Asset Management and Assistance Center (AMAC) in Austin, Texas. Please
refer to the NCUA organizational chart on page 3.

The NCUA Board adopted its 2000 budget on November 18, 1999. The final revised
2000 budget of $134,942,546 represents an increase of $12.9 million over the 1999
budget. The Full Time Equivalent (FTE) staffing authorization for 2000 is 1049.07, an
increase of 7.92 positions over the 1999 total of 1041.15.

The significant increase in the 2000 budget is necessary in order to provide the resources
required to hire and retain competent staff, and to meet the agency’s goals and objectives
as documented in the 2000 Annual Performance Plan.



                                                2000          1999      Difference
           LOCATION                             FTE           FTE          FTE
           Headquarters                        236.40       228.40           8
           Regional Offices                    173.27        167.25         2.92
           Field Examiners                     639.50        640.50          -3
            Total Positions Authorized        1049.07       1041.15         7.92




                                             1
Inspector General’s Semiannual Report            National Credit Union Administration




           140,000

           120,000

           100,000

            80,000
                                                                    Budget
            60,000

            40,000

            20,000

                0
                     1995   1996   1997   1998    1999   2000




              1060
              1040
              1020
              1000
               980
               960                                                  FTEs

               940
               920
               900
               880
                     1995   1996   1997   1998    1999   2000




                                          2
Inspector General’s Semiannual Report                                   National Credit Union Administration




                             NCUA ORGANIZATION CHART


                                                      -NCUA BOARD-
                                                        CHAIRMAN

                                  OFFICE OF INSPECTOR                OFFICE OFCOMMUNITY
                                        GENERAL                       DEV. CREDIT UNIONS

                                            GENERAL                      NCUA BOARD
                                            COUNSEL                        STAFF


                             HEADQUARTERS                EXECUTIVE            FIELD
                             OFFICES                                          OFFICES
                                                         DIRECTOR


        OFFICE OF                       OFFICE OF                        REGION I             REGION II
     GENERAL COUNSEL             EXAMINATION & INSURANCE                ALBANY, NY         ALEXANDRIA, VA


        OFFICE OF THE                   OFFICE OF                        REGION III          REGION IV
 CHIEF INFORMATION OFFICER           CORPORATE CREDIT                   ATLANTA, GA           LISLE, IL
                                         UNIONS

       OFFICE OF                      OFFICE OF THE                      REGION V            REGION VI
    HUMAN RESOURCES              CHIEF FINANCIAL OFFICER                 AUSTIN, TX         CONCORD, CA


        OFFICE OF                       OFFICE OF                 ASSET MANAGEMENT &
      ADMINISTRATION               INVESTMENT SERVICES             ASSISTANCE CENTER
                                                                        AUSTIN, TX



   OFFICE OF PUBLIC &             OFFICE OF TRAINING &
  CONGRESSIONAL AFFAIRS              DEVELOPMENT




                                                              3
Inspector General’s Semiannual Report               National Credit Union Administration


                              NCUA HIGHLIGHTS

CHAIRMAN D’AMOURS HIGHLIGHTS COMMITMENT TO ADDRESS
CREDIT UNION ISSUES ON CAPITOL HILL

Chairman Norman D’Amours stated he would work to enhance federal charters and
“rectify some serious flaws” in the Credit Union Membership Access Act at the 2000
NAFCU Congressional Caucus on September 11, 2000. Chairman D’Amours
emphasized the value of the federal charter, noting that the safety and soundness record
of the federal credit union system—unlike that of state credit unions or banks—is
flawless. Chairman D’Amours advocated amending the Federal Credit Union Act in an
effort to correct the limitations placed on member business lending. The Chairman also
expressed interest in allowing credit unions to add lower- income areas as members
regardless of their charter status and make it easier for credit unions to voluntarily merge
regardless of Selective Employee Group size, if it is beneficial to members.

BOARD MEMBER DOLLAR ENCOURAGES EMBRACING INNOVATION,
REG-FLEX

In a September 11, 2000, presentation, NCUA Board Member Dennis Dollar challenged
credit unions to evolve with the changing marketplace, using the moment to discuss his
proposal, “Reg-Flex.” Mr. Dollar stated the primary goals of Reg-Flex as removing
“unnecessary regulatory hurdles” and confining regulation to areas and groups where
there is a compelling safety and soundness need. Mr. Dollar stated further that the ability
to evolve free of over-reaching regulations would enable credit unions to be more
innovative “while still adhering to the foundation of the credit union tradition.”

NCUA BOARD RECOMMENDS REVISIONS TO CHARTERING MANUAL TO
REQUIRE COMMUNITY ACTION PLANS (CAP)

NCUA’s Board proposed amendments to and received comments regarding its chartering
and field of membership manual to update chartering policies and further streamline the
select group application process. Included in this action is a proposal that the chartering
manual be revised to require that any type of application related to expanding,
converting, or chartering a community credit union include not only the required busine ss
and marketing plan, but also a CAP that would be periodically updated by the board of
directors of the credit union and reviewed periodically by NCUA. The CAP should detail
how community chartered credit unions intend to service their entire membership.




                                              4
Inspector General’s Semiannual Report                National Credit Union Administration


FINAL PROMPT CORRECTIVE ACTION RISK-BASED NET WORTH
REQUIREMENT SET

On July 13, 2000, the NCUA Board adopted a final rule establishing the risk-based net
worth requirement for credit unions that meet the definition of “complex,” completing the
final component of a system of prompt corrective action required by the Credit Union
Membership Access Act.

Applicable to all federally insured credit unions, the final rule implements a three-step
process based on eight “risk portfolios” representing risks ranging from negligible to
above average.

Effective January 1, 2001, the final rule will first apply to quarterly filers when filing
Call Reports in the first quarter of 2001 and will first apply to semiannual filers when
filing the mid-year 2001 Call Report.

BOARD AMENDS CONSUMER INFORMATION PRIVACY RULE

Chairman Norman D’Amours announced June 6, 2000, that the NCUA Board
unanimously voted to revise the final consumer privacy rule that was adopted at the
May 8, 2000, Board meeting. The change to Part 716 amends the requirement for a
privacy and opt-out notice where there is a joint relationship on a loan. The amendment
requires a credit union to provide a separate initial notice and a separate opt-out notice to
each borrower and guarantor only if the credit union actually shares their nonpublic
personal information with nonaffiliated third parties outside of one of the permissible
exceptions. This amendment does not affect the right of borrowers and guarantors to
receive notices if they are otherwise entitled to receive them as members of the credit
union.

FUTURE EXAMINATON PROCESS COMMITTEE (FEP-C) PROPOSAL
OUTLINES A MORE RISK-BASED EXAMINATION PROGRAM

The FEP-C reviewed NCUA’s current examination program and made recommendations
to make the examination a more risk-focused, forward-thinking process. NCUA will
continue to assess the credit union’s overall condition, determining the risk profile,
ensuring correction of significant deficiencies, and monitoring ongoing activities.
However, the examination program will be more risk-focused. That is, the program will
involve allocating time within each examination based on the highest risk areas rather
than spending minimal time in numerous areas that do not exhibit risk characteristics.
This ensures that supervisory attention remains properly focused on institutions
exhibiting weaknesses or adverse trends.




                                              5
Inspector General’s Semiannual Report              National Credit Union Administration




FEDERALLY INSURED CREDIT UNION HIGHLIGHTS
       redit unions submit semiannual call reports (financial statement data) to NCUA.

C      An NCUA staff assessment of the June 30, 2000 semi-annual call reports
       submitted by all federally insured credit unions, found that key financial
       indicators continue to be strong in all areas for the first six months of 2000.

ASSET GROWTH AND CAPITAL ACCUMULATION CONTINUE

Federally insured credit unions continued to increase assets and capital. Assets increased
by $15.4 billion, or 3.7%, up from $411 to $427 billion. Equity increased $.6 billion, or
4.6% to $47.3 billion, and the capital to assets ratio increased to 11.7%. Net Income
increased 16.6%, up from $3.7 to $4.3 billion. Membership in the nation’s 10,479 credit
unions increased 1.8% from 75.4 to 76.7 million members.

LOANS CONTINUE TO INCREASE

Loans increased $15.9 billion, or 5.9%, up from $272 to $287 billion. Used auto loans
increased $3.9 billion to $58.4 billion, or a 7.1% increase. New auto loans increased $4.2
billion to $56.6 billion, or a 7.8% increase. First mortgage real estate loans, which
increased $3.7 billion to $74.6 billion, a 5.2% increase, represent the largest amount in
credit union lending.

Delinquent loans declined to a historic level of .7% to $1.9 billion. The loan-to-asset
ratio increased from 66.0% to 67.3%. Shares grew at a much slower rate, causing the
loan to share ratio to increase to 77.6%.

SAVINGS INCREASE AT SLOWER RATE

While lending outpaced savings in the first six months of 2000, savings grew by 3.8%,
increasing from $356.9 to $370.6 billion. Share drafts led savings growth by increasing
11.2%, up from $44.8 to $49.8 billion. Regular shares in credit unions grew 2.7%,
moving up from $134.0 to $137.7 billion. Share certificates gained 3.3%, increasing
from $89.7 to $92.7 billion. This slower paced savings compared to loan growth boosted
the loan-to-share ratio from 76.1 to 77.6 percent. This increase in the loan-to-share ratio
coupled with the increase in the loan-to-asset ratio underscores a significant reduction in
credit union liquidity as funds are increasingly utilized to meet strong loan demand.

ELECTRONIC FINANCIAL SERVICES

The number of federally insured credit unions reporting web sites has increased
significantly over the past year. As of June 30, 2000, 3,307 federally insured credit
unions reported informational websites and 1,354 federally insured credit unions reported
they have interactive web sites.


                                            6
Inspector General’s Semiannual Report              National Credit Union Administration




                       LEGISLATIVE HIGHLIGHTS




CENTRAL LIQUIDITY FUND BORROWING CAP RAISED

The final version of the VA-HUD and Independent Agencies Appropriations bill for
fiscal year 2001 will include a borrowing ceiling of $1.5 billion for the Central Liquidity
Facility for new loans to credit unions. Although NCUA and the credit union trades were
hoping for a higher limit, the $1.5 billion figure is viewed as an improvement over the
$600 million that has been imposed every year except fiscal year 2000.

MEMBER BUSINESS LOANS

In June 2000, Rep. Ed Royce (R-CA) introduced the Faith-Based Lending Protection Act.
This bill would exempt credit unions serving non-profit religious organizations from the
12.25% of assets cap on member business loans.

LEGISLATION RAISING TRANSACTION THRESHOLDS FOR FILING AND
PAYMENT OF FEES TO THE FTC STALLED IN SENATE

Legislation that would raise the transaction thresholds for filing and payment of fees to
the Federal Trade Commission (FTC) for certain mergers has stalled in the Senate.
(Several recent credit union mergers may have been subject to the notification and fee
provisions of antitrust law.) NCUA, in conjunction with the credit union trade
associatio ns, has been seeking an amendment to exempt credit unions from these filing
and fee requirements.




                                             7
Inspector General’s Semiannual Report             National Credit Union Administration




GOVERNMENT INFORMATION SECURITY ACT PASSED IN HOUSE AND
SENATE, AWAITING SIGNATURE

The Senate Governmental Affairs Committee on October 12, announced the final Senate
passage of the Government Information Security Act, designed to improve federal
agencies’ security management practices. The bill now goes to the White House for the
President’s signature .The legislation requires, among other things, agency Chief
Information Officers to develop and implement security programs, which must undergo
annual evaluations by the agency’s IG and be subject to the approval of the Office of
Management and Budget. Specifically, agencies are required under the bill to “identify
and afford security protection commensurate with the risk and magnitude of the harm
resulting from the loss, misuse, or unauthorized access to or modification of information
collected or maintained by or on behalf of an agency.”

MISCELLANEOUS LEGISLATIVE UPDATE

Although credit unions remain hopeful that bankruptcy reform will pass, the odds
decrease with each day. Credit unions are also monitoring tax legislation that would
increase permissible IRA contributions. Finally, House Banking Committee Ranking
Member John LaFalce has pledged to introduce a bill to roll back restrictions imposed by
the Credit Union Membership Access Act.




                                            8
Inspector General’s Semiannual Report                        National Credit Union Administration


                  OFFICE OF INSPECTOR GENERAL


T      he Office of Inspector General was established at the NCUA in 1989 under the
       authority of the Inspector General Act of 1978, as amended in 1988. The staff
       consists of the Inspector General, an Assistant Inspector General for
Investigations/Counsel, a part-time Special Agent, an Assistant Inspector General for
Audits, two Senior Auditors, a Senior Information Technology Auditor and an Office
Administrator.

The Inspector General reports to, and is under the general supervision of, the NCUA
Board. The Inspector General is responsible for:

1. Conducting, supervising, and coordinating audits and investigations of all NCUA
   programs and operations;

2. Reviewing policies and procedures to ensure efficient and economic operations as
   well as preventing and detecting fraud, waste, and abuse;

3. Reviewing existing and proposed legislation and regulations to evaluate their impact
   on the economic and efficient administration of agency programs; and

4. Keeping the NCUA and Congress apprised of significant findings and
   recommendations.




                                                 FRANK THOMAS
                                              INSPECTOR GENERAL


          WILLIAM DESARNO                 SHARON SEPAR, LEGAL COUNSEL/           LINDA QUEEN
    ASSISTANT INSPECTOR GENERAL           ASSISTANT INSPECTOR GENERAL       OFFICE ADMINISTRATOR
             FOR AUDITS                        FOR INVESTIGATIONS


           CHARLES FUNDERBURK, CPA                    ANNE K. VOEGELE
               SENIOR AUDITOR                          SPECIAL AGENT

             DWIGHT ENGELRUP, CPA
                SENIOR AUDITOR

               TAMMY RAPP, CPA
      SR INFORMATION TECHNOLOGY AUDITOR




                                                     9
Inspector General’s Semiannual Report             National Credit Union Administration



                               AUDIT ACTIVITY

AUDIT REPORTS ISSUED


Management Consulting Report on 5300 Process in Region I
OIG-00-05 June 20, 2000

This was the first management consulting report (MCR) prepared by the OIG. The
engagement topic and procedures were jointly developed with input from the Region I
management team and the OIG. Management consulting reports are prepared expressly
for a particular NCUA region. MCRs are not formal audits. The information provided in
the report is intended to assist management in achieving the region’s mission.

This particular engagement involved providing assistance to Region I in determining the
accuracy of call reports (form 5300) submitted by credit unions to NCUA. Our review
objective was to evaluate the regional office process in determining the accuracy of 5300
reports. The review scope included 5300 report activity in Region I for years 1999 and
2000.

We found that there was a good relationship among the 5300 program, written guidance,
regional and national plans, and goals. Overall, we found the Region I process to ensure
the accuracy of 5300 reports working well and evolving to meet new challenges. The
OIG provided nine suggestions for Region I consideration to further improve the 5300
process.


Review of Notebook Computer Inventory
OIG-00-06 July 26, 2000

In December 1999, NCUA committed $6.5 million to a three year lease for 1,560
Compaq notebook computers. Because of this substantial commitment, the OIG decided
to review the Agency’s internal controls over its current inventory of IBM and Toshiba
notebook computers including a review of NCUA’s notebook computer inventory
property management system and practices. This review concentrated on the Agency’s
current property management system and practices, while at the same time gathering
information regarding any new developments in property management as it related to the
procurement of the new Compaq notebook computers which had not yet been delivered
at the time we began our review.

Our review objectives were to determine the accuracy of NCUA’s notebook computer
inventory and to evaluate the adequacy of internal controls over notebook computers.




                                           10
Inspector General’s Semiannual Report              National Credit Union Administration


We were unable to reach a conclusion regarding the accuracy of NCUA’s accounting for
notebook computers for several reasons. First, there was no reconciliation performed
between property recorded in the Agency’s financial statements and the property
accounted for via the personal property management system. Second, there has not been
a recent physical inventory taken on notebook computers. The OIG attempted to perform
a notebook computer physical inventory and confirmation process which resulted in
several unresolved discrepancies. We did not attempt to resolve all of the discrepancies.
However, we did follow up on a judgmental sample of these discrepancies and were
unable to resolve all of them in our sample. Third, the accuracy of the initial distribution
of IBM notebook computers was suspect. And fourth, errors in the personal property
record input fields indicated an inaccurate accounting of assets, such as more than one
record with the same serial number; more than one record with a duplicate inventory tag
number; assignee confirmation of assets not recorded in the property management
system; and notebook computers assigned to contractors not recorded in the property
management system.

We concluded that the agency property management internal control system was weak
for the following reasons: there was a lack of segregation of duties; there were few
property management, EDP or manual, internal controls in place; and, there was a lack of
management oversight due to the absence of exception and edit reports for review.

We offered 24 recommendations for improving the property management system as it
applies to notebook computers.


Management Consulting Report on the Member Complaint Process in Region III
OIG-00-07 September 21, 2000

This report represents the second management consulting review conducted by the OIG.
The engagement involved providing assistance to NCUA’s Region III in determining the
effectiveness of the regional member complaint process.

The review objective was to evaluate the current process in the resolution of member
complaints submitted to the regional office and to provide suggestions for process
improvement. The review scope included member complaint activity in Region III for
years 1999 and 2000.

Our review included an evaluation of the relationship of the member complaint process to
written staff guidance; discussions with staff to determine and evaluate the regional office
program to ensure effectiveness and timeliness of the member complaint process; and an
evaluation of a sample of closed and in-process member complaints to evaluate the
effectiveness of the process. We found that overall the member complaint process was
working well in Region III. The OIG offered nine suggestions to further improve the
member complaint process in the region.




                                            11
Inspector General’s Semiannual Report             National Credit Union Administration


SEC OIG Peer Review
April 25, 2000

During this period, we completed a peer review of the audit operations at the Securities
and Exchange Commission (SEC) Office of Inspector General. The review was
conducted in accordance with the guidance adopted by the President’s Council on
Integrity and Efficiency (PCIE). The objective of the PCIE external qua lity control
review program is to foster quality audits by OIGs through an independent assessment of
the effectiveness of the internal quality control system in providing reasonable assurance
that applicable audit standards and requirements are being followed. We provided a
favorable opinion while offering several suggestions for improving SEC OIG audit
operations.



AUDITS IN PROCESS

SAP Security and Control Audit

We completed the fieldwork and are currently preparing a draft report of a SAP security
and control review that was performed in partnership with an independent public
accounting firm. NCUA implemented SAP R/3 in 1997 to handle its core financial
processes. The review included assessing controls in the following areas: SAP security;
data integrity; IT infrastructure; and business processes surrounding the Materials
Management, Financial Accounting, Controlling, and Human Resources modules.

Results Act: Review of Selected Performance Measures

The Government Performance and Results Act of 1993 (Results Act) seeks to improve
the effectiveness, efficiency, and accountability of federal programs by requiring federal
agencies to set goals for program performance and to report on annual performance
compared with the goals. Natural person and corporate credit unions periodically report
financial status to NCUA using call report forms 5300 and 5310 respectively. NCUA has
identified the call reports as key data sources to measure progress in meeting a number of
agency strategic goals. This OIG revie w will evaluate and determine the reliability of
credit union call report (forms 5300 and 5310) information identified as Results Act
performance measurements.

NCUA Budget Process

We have begun preliminary planning on a review of the NCUA budget process. Overall,
we will be evaluating the budget process to see if it can be improved to provide more
useful and reliable information to the NCUA Board. Specific objectives include how
well the NCUA budget accounts for the cost of meeting each of the agency’s strategic
goals; and how well the events leading up to approval of the NCUA budget are
effectively planned.



                                           12
Inspector General’s Semiannual Report          National Credit Union Administration



Review of Several Issues Related to the Acquisition and Roll-Out of
Compaq Notebook Computers and Windows 2000

The audit staff is in the process of reviewing several issues related to the recent
procurement and roll-out of Compaq notebook computers and the Windows 2000
operating system.




                                        13
Inspector General’s Semiannual Report              National Credit Union Administration



                        INVESTIGATION ACTIVITY
      n accordance with professional standards and guidelines established by

 I    the Department of Justice, the Office of Investigations performs
      investigations of both criminal and administrative wrongdoing involving
      agency programs. Our investigative jurisdiction focuses on activities
designed to promote economy, effectiveness, and efficiency, as well as
fighting fraud, waste, and abuse in agency programs. In addition to our
proactive efforts to deter misconduct and promote integrity awareness among agency
employees, we investigate referrals and direct reports of employee misconduct.
Investigations may involve possible violations of regulations regarding employee
responsibilities and conduct, Federal criminal law, and other statutes and regulations
pertaining to the activities of NCUA employees. Investigative findings may lead to
criminal prosecution, civil prosecution, or administrative action.

Moreover, we receive complaints from credit union members that involve NCUA
employee program responsibilities. These complaints are examined to determine whe ther
there is any allegation of NCUA employee misconduct. If not, the complaint is referred
to the appropriate regional office or closed if contact with the regional office indicates
that the complaint has been appropriately handled.


            Investigative Contacts


                Contacts/inquiries/investigations carried                  1
                  forward from previous reporting period

                Contacts initiated during report period                    9

                        Total contacts during reporting period             10


                Less:

                Contacts closed for lack of verifiable evidence            2
                  or referred to another office




                Reports issued and/or matters closed                       4
                Management Implication Reports issued and closed           0

                         Pending contacts                                  4


                                            14
Inspector General’s Semiannual Report              National Credit Union Administration


OFFICE OF INVESTIGATIONS ACTIVITIES

OPEN INVESTIGATIONS

For most of the reporting period, the Office of Investigations and the Office of Audit
have devoted significant time and resources to a single ongoing investigation based upon
a broad array of allegations—both criminal and administrative—referred to the OIG
concerning misconduct on the part of two senior agency officials. The investigation has
been time intensive as well as time sensitive. The OIG anticipates reporting the results of
this investigation in its next semi-annual report.

Concurrent with the above ongoing investigation, the Office of Investigations is
continuing four investigations into allegations referred to the OIG by agency employees.

CLOSED INVESTIGATIONS

The Office of Investigations conducted an investigation into an allegation that a senior
agency official inappropriately influenced the selection process for a senior level
position. The allegation proved unsubstantiated and the case was closed.




                                            15
Inspector General’s Semiannual Report            National Credit Union Administration



          LEGISLATIVE AND REGULATORY REVIEWS

Pursuant to its charge under the IG Act, we continually review proposed legislation and
regulations, as well as proposed agency instructions and other policy guidance, in order
to make recommendations concerning economy and efficiency in the administration of
NCUA programs and operations and the prevention and detection of fraud, waste and
abuse.

During the reporting period, the OIG reviewed 21 items, including 5 proposed
regulations, 2 final rules, one proposed notice, one proposed policy instruction, and 6
legislative proposals. Other items reviewed included extensive comments on proposed
legislation affecting the IG community.




                                          16
Inspector General’s Semiannual Report           National Credit Union Administration



                        OTHER OIG ACTIVITIES
STAFF TRAINING AND DEVELOPMENT

The Inspector General (IG), Frank Thomas continued to participate in the Financial
Institutions Regulatory Committee of the Executive Council on Integrity and Efficiency
(ECIE). The Committee provides a forum for Inspectors General of the NCUA, the
Federal Reserve System, the Department of the Treasury, the FDIC, the Federal Housing
Finance Board, the Securities and Exchange Commission, and the Farm Credit
Administration to: discuss matters of mutual interest; coordinate relevant audits,
investigations, legislative, and regulatory matters; and seek uniform approaches to
handling similar issues.

The Assistant IG for Audits (AIGA), William DeSarno, attended an Audit Consulting and
Advisory Services course and a Computer Forensics Symposium. The AIGA also
attended Federal Financial Institutions Regulatory OIG Council Meetings. Senior
Auditor, Dwight Engelrup attended courses on Audit Consulting and Advisory Services;
and Quick Response Auditing. Senior Auditor, Charles Funderburk attended an
Intermediate Information Systems Auditing course. Senior Information Technology
Auditor, Tammy Rapp, attended a course on Penetration Testing and a Computer
Forensics Symposium.

The Assistant IG for Investigations (AIGI), Sharon Separ, attended training by the
DCUSA on Public Corruption/Fraud. The AIGI and Special Agent, Anne Voegele, also
presented a class to NCUA supervisors on the role and responsibilities of the OIG; IG
independence; the types of employee misconduct that should be reported to the OIG; and
how the OIG handles confidentia l information.

In addition, the AIGA, AIGI, Senior Auditors and Special Agent answered questions and
provided information at the OIG “help desk” at NCUA’s Regional Conferences in
Austin, Las Vegas, and Orlando.




                                         17
     Inspector General’s Semiannual Report               National Credit Union Administration




                                             TABLE I

                         INSPECTOR GENERAL ISSUED REPORTS
                               WITH QUESTIONED COSTS

                                                       Number of    Questioned      Unsupported
                                                        Reports       Costs            Costs

A.    For which no management decision had
      been made by the start of the reporting             0             $0               $0
      period.

B.    Which were issued during the reporting
      period.                                             0             0                0

      Subtotals (A + B)                                   0             0                0

C.    For which management decision was
      made during the reporting period.                   0             0                0

      (i) Dollar value of disallowed costs                0             0                0

      (ii) Dollar value of costs not disallowed           0             0                0

D.    For which no management decision has
      been made by the end of the reporting               0             0                0
      period.

E.    Reports for which no management
      decision was made within six months of              0             0                0
      issuance.




     Questioned costs are those costs the OIG has questioned because of alleged violations of
     laws, regulations, contracts, or other agreements; findings which at the time of the audit
     are not supported by adequate documentation; or the expenditure for the intended purpose
     is unnecessary or unreasonable.

     Unsupported costs (included in "Questioned Costs") are those costs the OIG has
     questioned because of the lack of adequate documentation at the time of the audit.




                                                  18
Inspector General’s Semiannual Report            National Credit Union Administration



                                      TABLE II

               INSPECTOR GENERAL ISSUED REPORTS
      WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                           Number of          Dollar
                                                            Reports           Value

 A.    For which no management decision had been
       made by the start of the reporting period.               0               $0

 B.    Which were issued during the reporting period.           0               0

       Subtotals (A + B)                                        0               0

 C.    For which management decision was made
       during the reporting period.                             0               0

       (i) Dollar value of recommendations agreed to
       by management.                                          N/A              0

       (ii) Dollar value of recommendations not
       agreed to by management.                                N/A              0

 D.    For which no management decision was made
       by the end of the reporting period.                      0               0

 E.    For which no management decision was made
       within six months of issuance.                           0               0


Recommendations that "Funds to be Put to Better Use" are those OIG recommendations
that funds could be used more efficiently if management took actions to reduce outlays,
de-obligate funds from programs/operations, avoid unnecessary expenditures noted in
pre-award reviews of contracts, or any other specifically identified savings.




                                          19
 Inspector General’s Semiannual Report         National Credit Union Administration



                                     TABLE III

                      SUMMARY OF OIG ACTIVITY
                APRIL 1, 2000 THROUGH SEPTEMBER 30, 2000

PART I – AUDIT    REPORTS ISSUED
Report                                                                     Date
Number             Title                                                   Issued
OIG-00-05          Management Consulting Report – Region I                 6/20/00
OIG-00-06          Review of Notebook Computer Inventory                   7/26/00
OIG-00-07          Management Consulting Review – Region III               9/21/00

                   SEC Peer Review                                         4/25/00


PART II – AUDITS IN PROCESS (as of September 30,, 2000)
                SAP Security and Control
                Government Performance and Results Act: Review of Selected
                Performance Measures
                NCUA Budget Process
                Review of Several Issues Related to the Acquisition and Roll-Out of
                Compaq Notebook Computers and Windows 2000




                                         20
Inspector General’s Semiannual Report        National Credit Union Administration




                       WE WANT TO HEAR FROM YOU



                 CALL THE OIG HOTLINE




                      TOLL FREE 1-800-778-4806

                      WASHINGTON METRO AREA
                          703-518-6357
       You may call ANONYMOUSLY, or request that YOUR call be kept
                          CONFIDENTIAL




                                        21
